                                     Department of Energy
                                          Wasi-lington, DC 20585




M E . h ~ l O ~ W   ~ h'Hr.I&;<4.CTwpEf
                FC)XX.   ~              UTY SECRETARY




SIJX33ECIT:               IXFBWMAJllj: Letter Report on 1nspecti.onof "Depament of
                          Ex~ergy~itivitieshvolving the 'President's Surveillance Program"
                          (INS-L-09-01, in spec ti ax^ No. SOSHSO12)



'X'he Foreign Intelligeiice Su~-%leilBanc,xAct of 1978 (Act), ameridetl on July 10, 2008, requireti
Lktt Intelligence Community Inspectors Generd retriew specified aspects c9f their respective
 agencies' parti.cipati.onin the President's Surveillance Program. The Act defined the Program as
 "the inteBllgen.ce activity inarolving :comuralcationsthat was authorized by the I>resider~t   during
 the period beginniilg on September 1I, 2001, w.d endirrg on Jmuay 17, 2007.9' The Depmx~eni
 of Energy is a rrimber of the Intelligence Coannamity. ,4s such., we initiated an inspection to
 det.mine if the Department partici.pat.er4 in the Program and, if so: to report ari activities as
 required by the        This kxtter Rbpamr is to advise you of h e results of om inspection.



R.esponsible B p m m m t officials told us that t1b.m-ewas wo Depatfne~~t of Energy paticipaiion in
the I'rogrra~n. Our inspection disciosed no infomation to con.tradict this assation. During ow
fieldwork, we wnduded intrvie~viuf key Dq-ent              of Energy inadligence and
countwintel'digencc offkids and reviewed pertinent records. Further, we c~ordhatedn a n ~
checks of employees ~or1:zirng   in this area who were detailed t~ the DepaFtment between 2003
and 200'7 to determine if they were "read onto" d1.eProgram We !earned that one official
pwticipatcd in the TEmgarnwhile previously employed at a diflwent agency. The official stated
that his i~~olvernent  did not exte.nc8to work done at the Dqarimm~tof .Energy. Under the
circm~stances,and absent additional irsfr,rmrstion, this Letter Repart closes our effort. in this s e a .

Separately, a review of 1)epalr~mentactivities associated with the F:oreign Tntellipence
Surveillance Act, other than the President's SmreillmceProgram, is ongairry. This review, zdso
:;;?qaired by f i e Act, xiili resuit ir; 2 sqarate repon.

T h s inspection was conducted in accordance with. ifhe ''Qrtality Staniiards G3r i~nspeceionsq'
                                                                                              issued
by the President's Council ora Integrity and Efficiency. We appreciate the coopmatic9a we
received h r n your staff <cfuririgthe.ix~spection.If you hxve any questions cc~ncemirmgthis
review, feel free to contact me at 2Q2-586-4109.




                                        @     Pnr.rcd :vl:n so) ink un ::cycled papa
ec: Chief of Staff
    Director, Oflice of Intelligaxe and Counterintelligence
    C%meral Counsel
    Diredor, Policy and Xisternal Convrsls Managenlent NA.-66)
    Directcv, Office of Xniemol Re~4ew(CF-I -2)
